  MANAGEMENT CONTROLS FOR
ADMINISTRATIVE ACTIVITIES AT THE
SURFACE TRANSPORTATION BOARD
       Surface Transportation Board


       Report Number: SC-2004-084
      Date Issued: September 17, 2004
           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Management Controls                                  Date:    September 17, 2004
           for Administrative Activities at the Surface
           Transportation Board
           SC-2004-084

  From:    Alexis M. Stefani                                                   Reply to
                                                                               Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Chairman
           Surface Transportation Board


           This report presents the results of our audit of management controls for
           administrative activities at the Surface Transportation Board (STB). The review
           examined STB’s compliance with regulations and the Board’s policies for
           approving employee leave requests, using Government vehicles, administering the
           Government purchase and travel card programs, controlling personal property,
           preparing for emergencies, and securing STB facilities.

           STB was established on January 1, 1996, as an independent adjudicatory body
           administratively housed within the Department of Transportation (DOT).1 STB’s
           jurisdiction includes railroad rate and service issues; rail restructuring transactions
           (i.e., mergers, line sales, line construction, and line abandonments) and related
           labor concerns; certain trucking, moving van, and non-contiguous ocean shipping
           company rate issues; and certain intercity passenger bus company structural,
           financial, and operational matters. For fiscal year (FY) 2003, STB received
           $19.3 million in appropriations, with a staffing level of 145 full-time equivalent
           positions.




           1
               In 1995, the Congress passed the Interstate Commerce Commission Termination Act (49 U.S.C. 10101),
               which abolished the Interstate Commerce Commission and created STB. The Act transferred many of
               the Commission’s core rail functions to STB.
                                                                                                       2


RESULTS IN BRIEF
For most of the areas we examined, STB was in compliance with applicable
regulations and STB policies. For example, we found that STB leased its two
Government vehicles consistent with General Service Administration (GSA)
directives; properly used Government purchase cards; accurately recorded,
inventoried, and reconciled personal property; had plans for responding to
emergencies; and had taken steps to foster greater security. Nevertheless, we
identified problems in two areas: employee leave requests and travel cards.

Specifically, we found that STB managers needed to strengthen management
controls for documenting unscheduled absences from work.2 Through our review
of time and attendance transactions, we found supervisors provided the requisite
written approvals for all scheduled absences. However, this was not the case for
unscheduled absences, where supervisors permitted employees to use a sign in/out
log in lieu of written requests for leave. Some staff used the sign in/out logs to
record the type and duration of their unscheduled absences, and others left it up to
timekeepers to remember and record staff absences. Supervisors did not
consistently review the sign in/out logs.

In response to our finding, STB strengthened management controls for
documenting unscheduled absences. Specifically, STB management revised the
sign in/out form to include staff member certification, by initial or signature, of the
type and duration of unscheduled leave taken. In addition, supervisors and
timekeepers have been directed to review the sign in/out logs to ensure all
employees are properly recording unscheduled leave. We consider these actions
sufficient to resolve the control weaknesses found during our review.

We also identified a need for STB to strengthen its monitoring of travel card
purchases and withdrawals. All of the 14 employees who traveled paid the service
provider promptly. However, one employee abused his privileges by charging
$1,704 for personal expenses, including automobile rentals, an airline ticket,
lodging, and cash withdrawals. STB was not monitoring monthly travel card
expenses for misuse. By abusing his travel card, the employee violated his
account agreement with Citibank, DOT travel card policy, and the Standards of
Ethical Conduct for Employees of the Executive Branch.

In response, STB’s travel card program coordinator immediately reprimanded,
orally and in writing, the employee and took action to cancel his travel card
privileges. In addition, the program coordinator is now monitoring Citibank
activity reports for misuse by STB employees. Nevertheless, we recommend that

2
    Absences that were not scheduled or approved before being taken by employees, such as unexpected sick
    or emergency leave.
                                                                                                      3


the Chairman of the STB periodically confirm continued compliance with DOT
travel card policy regarding monitoring for misuse and delinquencies and ensuring
any required disciplinary action is taken.

Management Comments and Office of Inspector General
Response
A draft of this report was provided to STB on August 11, 2004, and STB provided
written comments on September 2, 2004. STB concurred with the findings and
recommendation. The actions taken and planned by STB are responsive to our
recommendation and should strengthen STB’s oversight of Government-issued
travels cards. The complete text of management’s comments is attached as an
appendix to this report.

OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of this audit was to determine compliance with regulations and
Board policy for the following administrative activities: approving employee
absences from work, using Government vehicles, administering Government
purchase and travel card programs, controlling personal property, preparing for
emergencies, and securing STB facilities. The audit was conducted in accordance
with Government Auditing Standards prescribed by the Comptroller General of
the United States. The audit reviewed administrative activities and management
controls during FY 2003 through March 31, 2004.3 We interviewed managers and
employees; reviewed regulations, policies, procedures, and records; and inspected
work areas.

RESULTS
We found STB to be in compliance with applicable regulations and STB’s policies
for most of the administrative areas examined during our audit. Two exceptions
involve problems associated with employee leave requests and travel cards. The
following details our findings in each of the administrative areas examined during
the audit, as well as actions undertaken by STB to correct the deficiencies we
identified.




3
    In November 2003, STB converted to a paperless payroll processing system operated by the Department
    of the Interior. Previously, the Environmental Protection Agency processed STB’s payroll. Our tests
    covered STB’s payroll for the period after the conversion: November 14, 2003, through April 3, 2004.
    We reviewed one 2-week time and attendance report for each of 54 employees. Of the employees
    included in our audit tests, 41 of 54 took leave: 20 had scheduled absences and 21 had unscheduled
    absences.
                                                                                                    4


Unscheduled Employee Absences Were Not Properly
Documented
Supervisors provided the requisite written approvals for all scheduled absences
from work. This was not the case for unscheduled absences, where employees
used a sign in/out log instead of a written request for leave. This practice did not,
in our opinion, comply fully with STB Administrative Issuance 7-505, “Leave
Administration,” which states:

          Supervisors may allow employees to use annual leave…without
          filling out SF-71s; however, employees must sign their time and
          attendance form to certify that the leave was taken….When an
          employee returns to work, he/she will complete an SF-71, have it
          approved, and give it to the timekeeper; or the employee will initial
          the time card for the leave which was taken.

Supervisory authorization and approval is key to ensuring the propriety of time
and attendance reporting. This did not always occur with unscheduled absences,
because supervisors permitted employees to use the sign in/out log in lieu of a
written request for leave. While some staff used the sign in/out logs to record the
type and duration of their unscheduled absences, others depended on timekeepers
to remember and record staff absences. In addition, some supervisors reviewed
sign in/out logs but others did not.

In response to our observations, STB strengthened management controls for
documenting unscheduled leave. Specifically, STB management revised the sign
in/out form to include all the elements of an SF-71: staff member’s certification,
by initial or signature, of the type and duration of unscheduled leave taken; fields
that specifically identify the type and hours of leave taken; and a ratification block
for supervisory approval. In addition, supervisors and timekeepers have been
directed to review the sign in/out logs to ensure all employees are properly
recording unscheduled leave. While we consider these actions sufficient to
resolve the management control weaknesses found during the audit, supervisory
vigilance remains critical to ensuring absences are reported fully and accurately.

Government Vehicles Were Used in Accordance with GSA
Directives
We found that STB complied with GSA directives for leased vehicles.4 STB
currently leases two cars from GSA. These leases, which are based on a fixed

4
    Generally, STB staff used each car several times weekly (an average of 10 miles per trip) in the
    Washington, DC, metropolitan area. We did not determine whether GSA-leased vehicles were the most
    cost-effective means of obtaining needed transportation, considering other factors such commercial
    leases, taxis or mass transit, and convenience to the Government.
                                                                                                     5


monthly and mileage rate according to vehicle type, include maintenance and fuel
expenses. Monthly leases for the two cars are $168 and $236, respectively. In
addition, STB pays 10.5 cents per mile traveled for each car. Through our review
of the directives, evaluation of records kept for the vehicles, physical observation
of the vehicles, and discussions with various STB staff, we found program
administrators appropriately safeguarded the vehicles, credit cards for
maintenance and fuel, and keys against damage, theft, or misuse. In addition, STB
provided requisite usage data to GSA each month and prohibited employees from
using the vehicles for personal transportation.

Staff Used and Managed Government Purchase Credit Cards
Properly
We found that cardholders, approving officials, and program coordinators used
and managed purchase cards consistent with STB Administrative Issuance 5-130,
“Use of the Government-Wide Purchase Credit Card.” This guidance, which is
based on Federal acquisition regulations, defines the Government purchase card
program, explains each cardholder’s duties, and provides detailed instructions
about what purchases can or cannot be made with the card. STB cardholders
made 1,015 purchases ($1.1 million) during FY 2003 and 376 purchases
($330,800) during the first 6 months of FY 2004. As part of the audit, we
reviewed supporting documentation for 132 purchases and, where necessary,
obtained clarifying information from various STB staff.5 Overall, we found
cardholders:

      • Supported all purchases with detailed purchase orders, all of which were
        approved by STB managers before the goods or services were ordered.

      • Solicited required competitive bids for all purchases exceeding $2,500.

      • Reconciled goods and services to date-stamped vendor invoices.

      • Reconciled vendor invoices to purchase orders and monthly purchase card
        bank statements, which were reviewed by STB managers.




5
    Our judgmental sample of 132 purchases worth $538,000 considered factors such as the merchant code,
    dollar value, and description of goods and services.
                                                                                                     6


An STB Employee Misused His Government Travel Card for
Personal Expenses and Cash
Fourteen STB employees used Government travel cards for 131 transactions
totaling $15,885.6 Of these totals, we identified one employee who abused his
privileges by charging $1,704 for personal expenses, including automobile rentals,
an airline ticket, lodging, and cash withdrawals. STB was not performing monthly
reviews for travel cards misuse. By abusing his travel card, the employee violated
his account agreement with Citibank, DOT travel card policy, and Standards of
Ethical Conduct for Employees of the Executive Branch.

Citibank, a contractor under GSA’s SmartPay Travel Card Program, is STB’s
service provider for travel cards. Federal Travel Regulations state that each
employee who receives a travel card is responsible for using it for official
purposes only and for paying the charges promptly. With the travel card, each
employee receives a Citibank account agreement specifically stating that the
employee is prohibited from using the card for “personal, family, or household
purposes.” The card is clearly imprinted “For Official Government Travel Only.”

Furthermore, DOT’s Assistant Secretary for Budget and Programs and Chief
Financial Officer issued a department-wide travel card policy in March 2002 that
states:

          When employees apply for a contractor-issued credit card, they
          assume the responsibility to use the card for official purposes and
          pay the charges in a timely manner. These responsibilities are
          explained in the Cardholder Agreement that each employee signs
          during the application process.

This policy also requires that Operating Administrations have their designated
travel card program coordinators monitor monthly delinquency reports provided
by Citibank and provide the reports to supervisors of delinquent employees for
appropriate action. The policy further directs supervisors to take disciplinary
actions for misuse. STB’s schedule of disciplinary actions for misuse ranges from
oral admonishment to written reprimand for a first offense, written reprimand to a
5-day suspension for a second offense, and card revocation to removal from STB
employment for a third offense. In June 2003, DOT issued policy revisions that
included new requirements for the Operating Administrations regarding

6
    We limited our review of transactions to STB employees who used travel cards for the 12 months that
    ended March 31, 2004. We identified abuse by comparing STB travel vouchers to Citibank credit card
    activity reports. As for delinquencies, OIG Report Number SC-2004-067, “Follow-up Audit on DOT
    Travel Card Delinquencies and Charge Offs,” June 29, 2004, included an assessment of delinquent
    accounts by Operating Administration for the period August 2003 through March 2004. That audit did
    not identify any STB employees with delinquent accounts.
                                                                                                            7


monitoring for misuse, limits on cash withdrawals, delinquencies, and disciplinary
actions. The Government’s Standards of Ethical Conduct of Employees of the
Executive Branch also covers misuse of travel cards.

In response to our finding, STB’s travel card program coordinator immediately
reprimanded, both orally and in writing, the employee who misused his travel
card. In addition, the coordinator took action to cancel the employee’s travel card
privileges and is now monitoring Citibank activity reports each month for misuse
by STB employees. Together, the disciplinary action7 and increased monitoring
should strengthen STB oversight of travel card use.

Personal Property Was Accurately Recorded, Inventoried, and
Reconciled
STB has an effective process for controlling personal property. STB’s inventory
of accountable personal property includes 550 items worth slightly more than
$1 million. We conducted a physical inventory of 64 randomly selected items
(ranging from $503 to $11,672) included in STB’s inventory. In addition, we
conducted a reverse inventory by tracing seven randomly selected items, such as
printers and fax machines, from the “floor” to STB inventory records. We either
located or accounted for each of the items included in our physical inventory and
traced all items selected from the floor to inventory records.

We found STB accounts for any personal property item costing more than $500,
which is more restrictive than DOT requirements.8 In addition, STB periodically
inventories and reconciles personal property; the last physical inventory was
conducted in May and June 2003. At that time, STB did not locate two items, a
computer terminal and an electronic switch, together valued at $1,497. STB
completed the requisite Report of Survey for the two items, which disclosed that
the computer terminal had been returned to another Federal agency from which it
had been borrowed and the switch had been returned to the vendor. STB
inadvertently had not adjusted its records to reflect the returned items.




7
    These actions were also consistent with the Department’s Table of Offenses and Disciplinary Actions for
    Delinquent and Unauthorized Use of the Government Travel Charge Card in Chief Financial Officer
    Policy 06-03: “Travel Card Management.”
8
    DOT Handbook H-4410.4, Equipment Management and Control, includes requirements for designating,
    training, and assigning responsibilities to property officers and custodians; recording specific equipment
    in property records; and conducting physical inventories. This handbook requires DOT agencies to
    account for personal property having an acquisition cost of $1,000 or greater. STB Administrative
    Issuance 5-305, “Inventory Management Services/Property Management,” supplements the DOT
    handbook.
                                                                                                  8


Plans Are in Place for Responding to Emergencies and Steps
Have Been Taken To Foster Greater Security
STB’s Business Continuity Plan is intended to protect STB personnel and mission
critical applications.9 This plan includes an Occupant Emergency Program Plan,
which was last revised in April 2003.10 Distributed to all employees, the Occupant
Emergency Program Plan identifies the building owner and STB responsibilities,
duties of key personnel in the event of any emergency, training for STB personnel,
and emergency and evacuation procedures. It also includes specific actions for
responding to bomb threats, demonstrations, fires, explosions, severe windstorms,
earthquakes, biological or chemical incidents, hostage situations, and serious
incidents such as assault or rape. Finally, the plan identifies building access
controls, procedures for responding to sudden cardiac arrest, and procedures for
handling suspicious mail. Over the last year, STB has held training sessions to
familiarize plan participants with new procedures and an “all hands” meeting to
discuss basic details of the plan with employees. STB also conducted an
unplanned building evacuation in December 2003. STB has emergency supplies
and first-aid kits for each STB employee and additional stores for visitors.

The Federal Protective Service, which has assessed STB facilities as a “low”
security risk, conducts random inspections of STB’s contract guard service. While
no problem areas were identified, STB needs to remain vigilant in regularly
reviewing its security plan and making necessary adjustments.

RECOMMENDATION
We recommend that the Chairman of the STB periodically confirm continued
compliance with DOT travel card policy regarding monitoring for misuse and
delinquencies and ensuring any required disciplinary action is taken.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
A draft of this report was provided to the Chairman, Surface Transportation Board,
on August 11, 2004. The Chairman responded on September 2, 2004, concurring
with our findings and recommendation. (See the appendix to this report for the
complete text of the Chairman’s comments.) The actions taken and planned by
STB are responsive to our recommendation.



9
   STB’s Business Continuity Plan supports DOT’s Continuity of Operations Plan, which centers on the
   business processes of DOT and its agencies.
10
   The Department of Homeland Security’s Federal Protective Service approved STB’s Occupant
   Emergency Program Plan.
                                                                                 9


To strengthen controls for documenting unscheduled leave, the Director for STB’s
Office of Economics, Environmental Analysis and Administration issued a
memorandum to Office Directors and employees reminding them that all periods
of absence must have supervisory approval. In addition, the memorandum
requires that unscheduled, unplanned absences be documented by either an
approved Office of Personnel Management Form 71, Request for Leave or
Approved Absence, or a Work Schedule Control Sheet. Office Directors are
accountable for ensuring Work Schedule Control Sheets have supervisory
ratifications.

To preclude abuses of travel cards, STB has been downloading cardholder
monthly activity reports since May 2004. The coordinator for STB’s travel card
program has been monitoring these reports for unauthorized activity or delinquent
accounts. In addition, the Chairman will initiate a program whereby he is
periodically apprised by staff that the Board is in compliance with DOT Travel
Card Policy.

ACTION REQUIRED
The actions taken and planned by STB are responsive to our findings and
recommendation. Therefore, we consider the recommendation closed, subject to
follow-up requirements in DOT Order 8000.1C.

We appreciate the courtesies and cooperation afforded us by STB representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366-1992 or Ms. Robin K. Hunt, Deputy Assistant Inspector General for
Hazardous Materials, Security and Special Programs, at (415) 744-3090.

                                        #

cc: Director, Office of Economics, Environmental
     Analysis and Administration, STB
    Martin Gertel, M-1
APPENDIX. MANAGEMENT COMMENTS                                                                     10




To:             Alexis M. Stefani                                Date:    September 2nd, 2004
                Principal Assistant Inspector General
                for Auditing and Evaluation

From:           Roger Nober
                Chairman

Subject:        Draft Report on Management Controls for Administrative Activities at the
                Surface Transportation Board


I have reviewed the draft report detailing the results of your recent audit of management controls for
administrative activities at the Surface Transportation Board (STB). The review addressed a wide
range of areas including leave administration, use of Government vehicles, purchase and travel
cards, personal property, and emergency procedures and security at the STB.

Overall, this report found that the Board was in compliance with relevant rules, regulations, and
procedures related to the activities examined. However, deficiencies were identified in two areas;
controls for documenting unscheduled leave and one irregularity in the Board’s travel card program.
This memo is my response to those findings.

Your draft report on administrative activities found that the Board has appropriate mechanisms in
place for documenting and tracking planned, scheduled leave. However, the review did cite a need
for improved management controls for documenting unscheduled absences from work. Specifically,
your evaluation found that, in many instances, it was left to the timekeepers to record absences of
unscheduled leave and that some supervisors failed to consistently review the Sign-In and Out logs
or Work Schedule Control Sheets.

Our current policy for unscheduled leave can be found in STB Administrative Issuance 7-505, Leave
Administration, dated May 12, 2004. Section 5a(5)(a) states that in emergency situations,
“...employees must notify their first-level supervisors, if available, or second-line supervisors by
phone at the earliest possible time and indicate that they must take leave for an emergency or
unanticipated personal need. When the employee returns to work, he/she will complete an OPM-71,
have it approved, and give it to the timekeeper; or the employee will initial the Work Schedule
Control Sheet for the leave which was taken.”

I believe that strict adherence to our already-established policy will ensure that periods of
unscheduled, unplanned leave are properly documented and tracked. Therefore, separate memoranda




Appendix. Management Comment s
                                                                                                   11

will be issued to Office Directors and employees on this date, reminding them that:

·       All periods of absence, even unplanned absences, must be approved by the supervisor.
·       Upon an employee’s return to work from an unscheduled absence, he/she must either (1)
        complete an OPM-71, Request for Leave or Approved Absence, have it approved and
        forward it to the timekeeper or (2) fill in the Work Schedule Control Sheet.
·       When an employee finds that he/she needs to take unscheduled leave after arriving at work,
        the employee must either (1) complete the OPM-71 or (2) initial the Work Schedule Control
        Sheet, being sure to clearly document the time period covering the absence (e.g., “2:00pm -
        4:30pm”).

To facilitate consistency in the implementation of these procedures, also effective immediately, all
Offices will be instructed to use a uniform Work Schedule Control Sheet (copy of memos to Office
Directors and staff are attached). In addition, supervisors will be required to consistently review and
ratify the Work Schedule Control Sheet for their respective organizations. Office Directors will be
accountable for ensuring that the Work Schedule Control Sheets have the supervisors’ ratifications.

The second issue identified during the IG’s audit dealt with the travel card program. During the
course of the audit, it was revealed that one employee was abusing his travel card privileges by
charging items for personal use. By abusing his travel card privileges, the employee violated his
account agreement with Citibank, DOT travel card policy, and Standards of Ethical Conduct for
Employees in the Executive Branch. Upon identification of the travel card abuse, the STB
immediately, in May 2004, reprimanded the employee (both orally and in writing) and cancelled his
travel card privileges. These actions are in accordance with the STB’s policy for disciplinary actions
for delinquent and unauthorized use of the Government travel credit cards. In order to preclude
abuses of travel cards in the future, we have been downloading the cardholder monthly activity
reports since May 2004. The travel card program coordinator has been monitoring individual
monthly cardholder activity reports for any unauthorized cardholder activity or delinquent accounts.
The monitoring of the monthly reports together with the STB’s policy for disciplinary actions for
delinquent and unauthorized use of the credit cards has strengthened our oversight of the government
issued travel cards. However, consistent with your recommendation, I will initiate a program where
the Chairman is apprised by staff that the Board is in compliance with DOT Travel Card Policy on
a periodic basis.

I am generally pleased with the results of the audit of the management controls for administrative
activities at the Board. With the improvements in the two areas addressed in the OIG’s findings, the
STB is in compliance with the OIG recommendations.

I trust these administrative changes meet with your approval. If you have any questions or require
additional information, please contact Leland Gardner, Director of the Office of Economics,
Environmental Analysis and Administration, on 202-565-1532.

Attachments

CC:     Vice Chairman Mulvey
        Commissioner Buttrey


Appendix. Management Comment s
                                                                                                 12




                                       September 2, 2004



MEMORANDUM FOR:                 Office Directors, Branch Chiefs, and Section Chiefs

MEMORANDUM FROM:                Leland L. Gardner
                                Director, Office of Economics, Environmental Analysis
                                 and Administration

SUBJECT:                        Improved Management Controls for Time and Attendance

        A recent Office of Inspector General (OIG) review of the Board’s Administrative
Activities found that the Board has appropriate mechanisms in place for documenting and
tracking planned, scheduled leave. However, the review did cite a need for improved
management controls for documenting unscheduled absences from work. Specifically, their
evaluation found that, in many instances, it was left to the timekeepers to record absences of
unscheduled leave and that some supervisors failed to consistently review the Sign-In and Out
logs or Work Schedule Control Sheets.

         Our current policy for unscheduled leave can be found in STB Administrative Issuance
7-505, Leave Administration, dated May 12, 2004. Section 5a(5)(a) states that in emergency
situations, “...employees must notify their first-level supervisors, if available, or second-line
supervisors by phone at the earliest possible time and indicate that they must take leave for an
emergency or unanticipated personal need. When the employee returns to work, he/she will
complete an OPM-71, have it approved, and give it to the timekeeper; or the employee will initial
the Work Schedule Control Sheet for the leave which was taken.”

       Adherence to our already-established policy will ensure that periods of unscheduled,
unplanned leave are properly documented and tracked. Therefore, Board employees are
reminded that:

·       All periods of absence, even unplanned absences, must be approved by the supervisor.
        There is no need to initially notify the timekeeper as the timekeeper is not the approving
        official for leave requests. Timekeeper notification can occur upon your return to work.
·       Upon your return to work from an unscheduled absence, you must either (1) complete an
        OPM-71, Request for Leave or Approved Absence, have it approved and forward it to the
        timekeeper or (2) fill in the Work Schedule Control Sheet.
·       When you find you need to take unscheduled leave after you arrive at work, you must
        either (1) complete the OPM-71 or (2) initial the Work Schedule Control Sheet, being
        sure to clearly document the time period covering the absence (e.g., “2:00pm - 4:30pm”).

Appendix. Management Comment s
                                                                                              13

        To facilitate consistency in the implementation of these procedures, effective
immediately, all Offices are to use the attached Work Schedule Control Sheet. In addition,
supervisors are to consistently review and ratify the Work Schedule Control Sheet for their
respective organizations. Office Directors will be accountable for ensuring that the Work
Schedule Control Sheets have the supervisors’ ratifications.

        If you have any questions, please contact Tony Jacobik or Joy Charles.


CC:     Chairman Nober
        Vice Chairman Mulvey
        Commissioner Buttrey
        Timekeepers




Appendix. Management Comment s
                                 14




Appendix. Management Comment s
                                                                                                 15




                                           September 2, 2004



MEMORANDUM FOR:                 All Employees

MEMORANDUM FROM:                Leland L. Gardner
                                Director, Office of Economics, Environmental Analysis
                                 and Administration

SUBJECT:                        Improved Management Controls for Time and Attendance

        A recent Office of Inspector General (OIG) review of the Board’s Administrative
Activities found that the Board has appropriate mechanisms in place for documenting and
tracking planned, scheduled leave. However, the review did cite a need for improved
management controls for documenting unscheduled absences from work. Specifically, their
evaluation found that, in many instances, it was left to the timekeepers to record absences of
unscheduled leave and that some supervisors failed to consistently review the Sign-In and Out
logs or Work Schedule Control Sheets.

         Our current policy for unscheduled leave can be found in STB Administrative Issuance
7-505, Leave Administration, dated May 12, 2004. Section 5a(5)(a) states that in emergency
situations, “...employees must notify their first-level supervisors, if available, or second-line
supervisors by phone at the earliest possible time and indicate that they must take leave for an
emergency or unanticipated personal need. When the employee returns to work, he/she will
complete an OPM-71, have it approved, and give it to the timekeeper; or the employee will initial
the Work Schedule Control Sheet for the leave which was taken.”

       Adherence to our already-established policy will ensure that periods of unscheduled,
unplanned leave are properly documented and tracked. Therefore, Board employees are
reminded that:

·       All periods of absence, even unplanned absences, must be approved by the supervisor.
        There is no need to initially notify the timekeeper as the timekeeper is not the approving
        official for leave requests. Timekeeper notification can occur upon your return to work.
·       Upon your return to work from an unscheduled absence, you must either (1) complete an
        OPM-71, Request for Leave or Approved Absence, have it approved and forward it to the
        timekeeper or (2) fill in the Work Schedule Control Sheet.
·       When you find you need to take unscheduled leave after you arrive at work, you must
        either (1) complete the OPM-71 or (2) initial the Work Schedule Control Sheet, being
        sure to clearly document the time period covering the absence (e.g., “2:00pm - 4:30pm”).


Appendix. Management Comment s
                                                                                              16


        To facilitate consistency in the implementation of these procedures, effective
immediately, all Offices are to use the new Work Schedule Control Sheet. In addition,
supervisors are to consistently review and ratify the Work Schedule Control Sheet for their
respective organizations. Office Directors will be accountable for ensuring that the Work
Schedule Control Sheets have the supervisors’ ratifications.

        If you have any questions, please contact Tony Jacobik or Joy Charles.




Appendix. Management Comment s
                                 17




Appendix. Management Comment s
